  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


    Evaluation of DHS’ Information Security 

         Program for Fiscal Year 2008 





OIG-08-94                       September 2008
Table of Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 2 


  Results of Independent Evaluation ................................................................................................ 4 


  Recommendations........................................................................................................................ 16 


  Management Comments and OIG Analysis ................................................................................ 17 


Appendices

  Appendix A:                Purpose, Scope, and Methodology.................................................................. 20 

  Appendix B:                Management Response to Draft Report.......................................................... 22 

  Appendix C:                FISMA Scorecard and C&A Steady State Scorecard for July 2008............... 25 

  Appendix D:                FISMA System Inventory and Certification and Accreditation, Security 

                             Controls Testing, and Contingency Plan Testing ........................................... 27 

  Appendix E:                Evaluation of Agency Oversight of Contractor Systems and Quality of

                             Agency System Inventory............................................................................... 29 

  Appendix F:                Evaluation of Agency Plan of Action and Milestones Process....................... 31 

  Appendix G:                IG Assessment of the Certification and Accreditation Process ...................... 32 

  Appendix H:                IG Assessment of Agency Privacy Program and Privacy Impact 

                             Assessment Process ........................................................................................ 33 

  Appendix I:                Configuration Management ............................................................................ 34 

  Appendix J:                Incident Reporting .......................................................................................... 35 

  Appendix K:                Security Awareness Training, Collaborative Web Technologies, and 

                             Peer-to-Peer File Sharing, and E-Authentication Risk Assessments ............. 36 

  Appendix L:                Major Contributors to this Report................................................................... 37 

  Appendix M:                Report Distribution ......................................................................................... 38 


Abbreviations
  ATO                        Authority to Operate    

  C&A                        Certification and Accreditation   

  CBP                        United States Customs and Border Protection 

  CIO                        Chief Information Officer 

  CISO                       Chief Information Security Officer   

  DHS                        Department of Homeland Security     

  FDCC                       Federal Desktop Core Configuration     

  FEMA                       Federal Emergency Management Agency        

  FIPS                       Federal Information Processing Standards    


                           Evaluation of DHS’ Information Security Program for Fiscal Year 2008
Table of Contents/Abbreviations 

  FISMA              Federal Information Security Management Act
  FLETC              Federal Law Enforcement Training Center
  FY                 Fiscal Year
  ICE                United States Immigration and Customs Enforcement
  ISSM               Information Systems Security Manager
  ISSO               Information Systems Security Officer
  IT                 Information Technology
  Management         Management Directorate
  NFRs               Notice of Findings and Recommendations
  NIST               National Institute of Standards and Technology
  OIG                Office of Inspector General
  OIS                Office of Information Security
  OMB                Office of Management and Budget
  PIA                Privacy Impact Assessment
  PII                Personally Identifiable Information
  POA&M              Plan of Action and Milestones
  PTA                Privacy Threshold Analysis
  SP                 Special Publication
  S&T                Science and Technology
  Training Office    Information Security Training, Education, and Awareness Office
  TSA                Transportation Security Administration
  USCG               United States Coast Guard
  USCIS              United States Citizenship and Immigration Services
  USSS               United States Secret Service




                    Evaluation of DHS’ Information Security Program for Fiscal Year 2008
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                We conducted an independent evaluation of the Department of
                Homeland Security (DHS’) information security program and practices
                to comply with the requirements of the Federal Information Security
                Management Act of 2002 (Public Law 107-347, Sections 301-305). We
                evaluated the department’s progress in implementing its agency-wide
                information security program. In doing so, we specifically assessed the
                department’s Plan of Action and Milestones (POA&M), as well as its
                certification and accreditation (C&A) processes. We also performed an
                assessment of the department’s privacy program. Fieldwork was
                performed at both the program and component levels.

                The department continues to improve and strengthen its security
                program. During the past year, the department implemented a
                performance plan to improve on four key areas: POA&M weaknesses
                remediation, quality of C&A, annual testing and validation, and
                security program oversight. The performance plan tracks key elements
                that are indicative of a strong security program. In addition, the
                department strengthened its oversight at the components and conducted
                compliance reviews in the areas of C&A and configuration
                management. While these efforts have resulted in some improvements,
                components are still not executing all of the department’s policies,
                procedures, and practices. For example, the more significant
                exceptions noted are:
                •	 Systems are being accredited though key documents and key
                    information are missing.
                •	 POA&Ms are not being created for all known information security
                    weaknesses.
                •	 POA&M weaknesses are not being mitigated in a timely manner.
                •	 Baseline security configurations are not being implemented for all
                    systems.
                Management oversight of the components’ implementation of the
                department’s policies and procedures needs improvement in order for
                the department to ensure that all information security weaknesses are
                tracked and remediated, and enhance the quality of system C&A.
                Additional information security program areas that need improvement
                include configuration management, incident detection and analysis,
                specialized training, and privacy.

                  Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                             Page 1
                  We are making nine recommendations to the Chief Information Officer
                  and Chief Privacy Officer. The department concurred with all our
                  recommendations and has already begun to take actions to implement
                  them. The department’s response is summarized and evaluated in the
                  body of this report and included, in its entirety, as Appendix B.

Background
                  Due to the increasing threat to information systems and the highly
                  networked nature of the federal computing environment, the Congress,
                  in conjunction with the Office of Management and Budget (OMB),
                  requires an annual review and reporting of agencies’ compliance with
                  the Federal Information Security Management Act (FISMA). FISMA
                  focuses on the program management, implementation, and evaluation
                  of the security of unclassified and national security systems.

                  Recognizing the importance of information security to the economic
                  and national security interests of the United States, the Congress
                  enacted Title III of the E-Government Act of 2002 (Public Law
                  107-347, Sections 301-305) to improve security within the federal
                  government. Information security means protecting information and
                  information systems from unauthorized access, use, disclosure,
                  disruption, modification, or destruction. Title III of the E-Government
                  Act, entitled FISMA, provides a comprehensive framework to ensure
                  the effectiveness of security controls over information resources that
                  support federal operations and assets.

                  FISMA requires each federal agency to develop, document, and
                  implement an agency-wide security program. The agency’s security
                  program should protect the information and the information systems
                  that support the operations and assets of the agency, including those
                  provided or managed by another agency, contractor, or other source.
                  As specified in FISMA, agency heads are charged with conducting an
                  annual evaluation of information programs and systems under their
                  purview, as well as an assessment of related security policies and
                  procedures. Offices of Inspector General (OIG) must independently
                  evaluate the effectiveness of an agency’s information security program
                  and practices on an annual basis.

                  OMB issued memorandum M-08-21, FY 2008 Reporting Instructions
                  for the Federal Information Security Management Act and Agency
                  Privacy Management, on July 14, 2008. The memorandum provides
                  updated instructions for agency and OIG reporting under FISMA. In

             Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                            Page 2
     accordance with OMB’s reporting instructions, this annual evaluation
     summarizes the results of our review of DHS’ information security
     program and practices.

     The Chief Information Security Officer (CISO) leads the Office of
     Information Security (OIS) and is responsible for managing DHS’
     information security program. To aid in managing its security program,
     DHS developed a process for reporting and capturing known security
     weaknesses in its POA&Ms. DHS uses an enterprise management tool
     to collect and track data related to all POA&M activities, including
     weaknesses identified during self-assessment and the C&A process.
     DHS’ enterprise management tool also collects data on other FISMA
     metrics, such as the number of systems that have implemented DHS’
     security baseline configurations and the number of employees who
     have received information technology (IT) security training.

     In addition, DHS uses an enterprise-wide C&A tool to automate and
     standardize portions of the C&A process to assist DHS components in
     quickly and efficiently developing their security accreditation packages.
     Below is an illustration on how the enterprise management and C&A
     tools are used within the department to collect, manage, and report
     information security metrics.

                   DHS’ Enterprise Security Management Tools Usage

             DHS 4300                                            C&A Tool                                       Data Review Teams

        FISMA Requirements                               System Security Plan (SSP)                                   DHS
                                                                                                                   Compliance
         OMB/NIST Guidance                        Requirements Traceability Matrix (RTM)                             Review
                                                                                                                     Teams
                                                      Security Assessment Report (SAR)
         Other Requirements
                                                          Sample Test Procedures
                  Component IT Security                                                                               OIG
                  Program Implementation                        Test Results

                                                             Contingency Plans              Data Verification
                             IT System                                                          and Review
                        Implementations                                                                            Component/
                                                                                                                    Domain
                                                                      Future Link                                    ISSM
              DHS
           Component/
                                                         FISMA Reporting Tool
             Domain

                                                   System and Program Security Metrics
                            Monthly Status
                            Updates               Plan of Action and Milestones (POA&M)
                                                                                           FISMA Reports              OMB
                                                      Annual Assessment Questionnaire

                                                        Summary of C&A Status/Docs

                                                                  Reports

                                                             Digital Dashboard              Metrics
                                                                                                                     DHS
                                                                                            Digital Dashboard     Management




     Source: DHS 4300A Sensitive Systems Handbook, Attachment E – FISMA Reporting


Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                             Page 3
Results of Independent Evaluation
                We separated the results of our evaluation into seven FISMA areas.
                For each area, we identified the progress that DHS has made since our
                Fiscal Year (FY) 2007 evaluation and those issues that need to be
                addressed to be more successful in the FISMA area.

          OVERALL PROGRESS

                •	 The CISO developed the Fiscal Year 2008 DHS Information
                   Security Performance Plan “Achieving Excellence” to enhance its
                   information security program. The purpose of the plan is to
                   strengthen components’ compliance with DHS’ security program
                   and to improve the department’s incident response capability
                   through the development of a robust Network Operations/Security
                   Operations Center. The CISO developed a FISMA scorecard to
                   manage components’ compliance with the performance plan. See
                   Appendix C for an example of the FISMA scorecard.
                •	 The CISO revised the department’s baseline IT security policies and
                   procedures in DHS Sensitive Systems Policy Directive 4300A and its
                   companion, DHS 4300A Sensitive Systems Handbook to reflect the
                   changes made in DHS security policies and various National
                   Institute of Standards and Technology (NIST) guidance.
                •	   DHS continues to maintain an effective process to update and
                     manage an inventory of its agency and contractor systems on an
                     annual basis. In addition, DHS conducted site visits to component
                     offices outside the Washington D.C. area to determine whether
                     there were any systems that had not been identified by the
                     Information Systems Security Manager (ISSM) during the annual
                     system inventory reviews.
                •	   DHS has taken an active role in ensuring that components comply
                     with FISMA. The CISO implemented more stringent criteria for
                     reviewing the artifacts that components are required to upload into
                     the department’s enterprise management tool, in order to support
                     their C&A packages. See Appendix C for FY 2008 grades assigned
                     by the CISO.
                •	   The CISO established a new in-depth review team. The team
                     conducted site-visits at 10 components to determine whether DHS
                     security requirements had been implemented on selected systems.
                     As of July 2008, the team had reviewed 11 systems at 10
                     components. DHS plans to review 25 to 40 percent of its systems
                     in FY 2009.

           Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                          Page 4
       •	   The CISO established a new configuration management compliance
            team and randomly selected 23 systems at 7 components to evaluate
            their configuration management processes and determine whether
            DHS’ baseline configuration settings had been implemented.
       •	   The Office of Human Capital implemented a department-wide,
            web-based learning management system “DHScovery.” The
            implementation of DHScovery can assist DHS in standardizing
            security awareness training and track employee completion of the
            training.

OVERALL ISSUES TO BE ADDRESSED

       Despite the progress described above, the results of our review revealed
       that components are still not executing fully the department’s policies,
       procedures, and practices. For example, we determined:

       •	   Artifacts required to support the systems that have been accredited
            by the components were either missing key information or
            incomplete.
       •	   Components have not incorporated all known security weaknesses
            into their POA&Ms.
       •	   Components have not fully implemented DHS’ baseline
            configuration settings.
       •	   DHS does not have an automated process for maintaining and
            tracking its classified POA&Ms.
       •	   Appropriate training is needed for all individuals with significant
            security responsibilities.
       •	   Escalation process is needed for privacy impact assessments (PIA)
            that have been in the review and approval process for an extended
            period of time.

System Inventory

       DHS maintains an effective process to update and manage its systems
       inventory on an annual basis, including agency and contractor systems.
       In addition, DHS also conducts site visits to identify systems that were
       not included in the department’s annual inventory update process.




  Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                 Page 5
                           PROGRESS

                           •	   DHS continues to maintain a comprehensive inventory of its major
                                applications and general support systems, including contractor
                                systems. As of July 31, 2008, DHS identified 591 operational
                                systems.
                           •	   DHS continues to maintain an effective process to update and
                                manage its inventory on an annual basis for agency and contractor
                                systems by reviewing the system inventory with each component.
                           •	   DHS conducts site visits to component offices outside the
                                Washington D.C. area to determine whether there are any systems
                                that had not been identified by the ISSM during the annual system
                                inventory update process.

                           See Appendices D and E for system inventory and evaluation of DHS’
                           oversight of contractor systems and quality of system inventory.

                   Certification and Accreditation Process

                           DHS requires components to use an enterprise-wide tool that
                           incorporates NIST security controls required for system C&A. The
                           C&A process requires documentation to include system security plans,
                           risk assessments, system test and evaluation plans, security assessment
                           reports, contingency plans, and contingency plan test results.
                           Components are required to apply NIST Special Publication
                           (SP) 800-53 security controls for all system C&A and self-assessments.
                           For some of the systems that have been accredited by the components,
                           the artifacts required to support the C&A were either missing or
                           incomplete. In addition, some of the self-assessments were not being
                           properly completed by the components. We identified a similar issue in
                           our FY 2007 FISMA report.1

                           PROGRESS

                           •	   DHS continues to require components to upload 11 C&A artifacts
                                into its enterprise management tool to monitor the progress in
                                accrediting systems. The 11 artifacts are: Authority to Operate
                                (ATO) letter, system security plan, security assessment report, risk
                                assessment, security test and evaluation, contingency plan,
                                contingency plan test results, Federal Information Processing
                                Standards (FIPS) 199 determination, E-authentication

1
    Evaluation of DHS’ Information Security Program for Fiscal Year 2007 (OIG-07-77, September 2007).

                      Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                                     Page 6
          determination, privacy threshold analysis (PTA), and NIST 

          SP 800-53 self-assessment. 

     •	   As of July 31, 2008, the CISO reported that 95 percent of DHS’
          operational systems (560/591) have been certified and accredited.
     •	   The quality of C&A packages has improved in FY 2008, when
          compared to FY 2007. Specifically, only two of the 25 systems we
          evaluated this year had incomplete C&A packages where key
          security documents were missing, compared to 17 of 28 incomplete
          C&A packages reported in FY 2007. However, we continued to
          identify instances where required information was missing from
          security documents.

     ISSUES TO BE ADDRESSED

     •	   Systems were being accredited without key documents or where
          C&A documents were missing key information. We selected 25
          systems from 12 components and offices to evaluate the quality of
          DHS’ C&A process. For two systems, the accreditation packages
          were incomplete as key security documents were missing. For
          other systems, we identified that some of the required security
          documents were missing key information. Without this
          information, agency officials cannot make credible, risk-based
          decisions on whether to authorize the system to operate.
          Specifically, we determined:
              ¾	 Five instances where the FIPS-199 determination was not
                 completed in accordance with applicable DHS and NIST
                 guidance.
              ¾	 Twenty-two instances where system security plans were
                 missing sections that describe detailed emergency
                 configuration changes, management plans, security controls,
                 and incident handling procedures.
              ¾	 Nineteen instances where contingency plans were
                 incomplete, missing the identification of alternate
                 processing facilities or restoration procedures. One of the
                 contingency plans reviewed was more than four years old.
              ¾	 Three instances where the contingency plans had not been
                 tested. Some of the contingency plans could not be tested
                 because the alternate processing facilities were not
                 operational.
              ¾	 Eleven instances where some of the required critical security
                 controls were not included in the system test and evaluation
                 plan.


Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                               Page 7
     •	   As part of the C&A review, we also evaluated the quality of
          completed NIST SP 800-53 self-assessments. For example, we
          evaluated whether the components provided a compliance
          description for all applicable controls on how they were
          implemented. In addition, we evaluated whether supporting
          documentation existed for all controls that were reported as
          “tested”. Finally, we evaluated the adequacy of justification for any
          controls that were reported as “not applicable”; and whether a
          POA&M was created for all required controls that had not been
          tested. For example:
              ¾	 Twelve instances where some controls, required by DHS
                 and NIST, were missing from the templates used.
              ¾	 Twenty three instances where some required controls were
                 not tested; did not include validation and verification
                 testing; or were missing documentation to support that
                 testing was performed. Examples of these instances were
                 found in the areas of access control, configuration
                 management, contingency planning, and risk assessment.

     •	   During our configuration assessment, we identified instances where
          the system security plans did not accurately reflect the system
          boundary or a description of hardware and software installed.
          Without this information, agency officials cannot make credible,
          risk-based decisions to accredit the systems.
     •	   Components did not follow applicable guidance when performing
          E-Authentication determinations. We sampled 23 systems that
          were reported as E-Authentication applications in DHS’ enterprise
          management tool to determine whether the assessments were
          properly completed and applicable controls were implemented. For
          example, we found:
              ¾	 Nine systems were reported incorrectly as E-Authentication
                 applications in DHS’ enterprise management tool, when
                 compared to the E-Authentication determination. As such,
                 DHS may not have an accurate inventory of its
                 E-Authentication systems.
              ¾	 Four of the 14 E-Authentication systems had inconsistent
                 assurance levels reported in DHS’ enterprise management
                 tool when compared to the source documents. Only one of
                 the 14 E-Authentication systems properly addressed the
                 DHS and NIST required controls in the system test and
                 evaluation plans and security assessment reports for the
                 assigned E-Authentication assurance levels.


Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                               Page 8
       See Appendix G for the OIG assessment of DHS’ C&A process.

Plan of Action and Milestones Process

       DHS requires components to use its enterprise management tool to
       capture and track security weaknesses. The components are not
       entering and tracking all IT security weaknesses in DHS’ enterprise
       management tool nor is all of the data entered by the components
       accurate and updated in a timely manner. We identified a similar issue
       in our FY 2007 FISMA report.

       PROGRESS

       •	   DHS continues to conduct monthly reviews of POA&Ms for
            completeness and also monitors the closure rate for initial and
            repeat audit findings. The findings are reported to OIS and
            components.
       •	   Components have created POA&Ms for 182 of 200 (91%) notice of
            findings and recommendations (NFRs) for the weaknesses
            identified during the FY 2007 financial statement audit.
       •	   As required by DHS policy, ISSMs are to review and approve all
            priority 4 and priority 5 POA&Ms to ensure that the weakness is
            properly identified, prioritized, and that appropriate resources have
            been made available. Priority 4 weaknesses are assigned to initial
            audit findings and priority 5 weaknesses for repeat audit findings.
            As of June 30, 2008, there were 198 POA&Ms that were classified
            as priority 4 and priority 5 weaknesses, all of which had been
            reviewed and approved by the ISSMs.

       ISSUES TO BE ADDRESSED

       •	   DHS components have not created POA&Ms for all known security
            weaknesses. DHS relies on the component ISSMs and Information
            Systems Security Officers (ISSOs) to ensure that POA&M
            information is entered accurately and that weaknesses are resolved.
            During our review, component personnel cited a lack of time and
            staff as the explanation that their POA&Ms are not being updated
            regularly. For example, we identified:
                ¾	 Four components (Federal Emergency Management Agency
                   [FEMA], Immigration and Customs Enforcement [ICE],
                   Management Directorate [Management], and United States
                   Customs and Border Protection [CBP]) did not create


  Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                 Page 9
                 POA&Ms for findings identified in OIG audit reports issued
                 during FY 2008.
              ¾	 Although two components (CBP and Science and
                 Technology [S&T]) followed a manual process for
                 maintaining classified POA&Ms, there is no evidence of
                 periodic updates, ISSM reviews, or these weaknesses were
                 properly prioritized. FEMA has not implemented a process
                 for maintaining and tracking its classified POA&Ms.
              ¾	 Components are not creating a POA&M for the weaknesses
                 identified during the C&A process or from the NIST
                 SP 800-53 self-assessments. As part of our C&A quality
                 review, we evaluated whether POA&Ms had been created
                 for any weakness that was identified during the C&A
                 process, or from the NIST SP 800-53 self-assessment when
                 controls had not been tested and where risks were not
                 accepted. In 13 instances, POA&Ms were not created for
                 the weaknesses identified during the C&A process. In nine
                 instances, POA&Ms were not created for required controls
                 that were not tested as part of NIST SP 800-53
                 self-assessments.

     •	   While weaknesses were identified by the CISO’s in-depth team,
          components have created POA&Ms for only one of the 11 systems
          reviewed.
     •	   Based on an analysis of data in DHS’ enterprise management tool,
          as of June 30, 2008, the ISSMs and ISSOs are not maintaining
          current information as to the progress of security weakness
          remediation.
              ¾	 Component management is not updating all weaknesses
                 where the estimated completion date has been delayed. Of
                 the 4,245 open POA&Ms with estimated completion dates,
                 491 (12%) were delayed by at least 3 months (prior to
                 April 1, 2008). Further, 252 had an estimated completion
                 date over one year old, dating as far back as
                 September 30, 2005. In addition, completion dates for 226
                 of the 252 POA&Ms have not been updated since
                 March 2006.
              ¾	 Components are required to provide justification as to why
                 the remediation action for a POA&M is delayed. As of
                 June 30, 2008, 1,405 (71%) of 1,978 open POA&Ms
                 identified as delayed did not have an explanation for the
                 delay.



Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                               Page 10
                                    ¾	 Resources required for the remediation of 265 (6%) of the
                                       4,245 open POA&Ms were either not identified or listed the
                                       cost of remediation as less than $50. DHS requires a
                                       reasonable resources estimate of at least $50 be provided to
                                       mitigate the weakness identified.

                           •	   Not all POA&Ms are being resolved in a timely manner, including
                                weaknesses identified as significant deficiencies. As of
                                June 30, 2008:
                                    ¾	 282 (7%) of 4,245 open POA&Ms reported had estimated
                                       completion dates that were more than 2 years after the
                                       identification of the weakness.
                                    ¾	 11 open weaknesses are defined as significant deficiencies.
                                       Five of these 11 significant deficiencies were created more
                                       than 12 months ago. In addition, four of these five
                                       significant deficiencies are scheduled to take more than two
                                       years to complete the mitigation efforts.2

                           See Appendix F for the evaluation of DHS’ POA&M process.

                  Configuration Management

                           DHS has strengthened its oversight at the components. DHS also
                           issued a baseline configuration guide for the components to follow
                           when configuring their Windows Vista workstations. To evaluate
                           components’ compliance with DHS baseline configuration
                           requirements, we determined whether required configuration settings
                           had been implemented on the (1) 25 systems selected for our C&A
                           review, and (2) 28 systems chosen for the configuration assessment.
                           For the C&A review, we performed testing to determine whether DHS
                           baseline configuration settings were implemented on selected servers.
                           During our configuration assessment, we verified whether NIST SP
                           800-53 controls and DHS baseline configuration settings were
                           implemented on selected servers through interviews and observations.
                           Results from both reviews revealed that the components have not
                           implemented all of the required DHS baseline configuration settings.
                           We reported a similar issue in our FY2007 FISMA report.


2
  A significant deficiency is a weakness in an organization’s overall IT security program or management control
structure that significantly restricts the capability of the component to carry out its mission or compromises the
security of its information, information system, personnel, or other resources, operations, or assets. The risk is
great enough that the organization head must be notified and immediate or near-immediate corrective action
must be taken.

                     Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                                     Page 11
     PROGRESS

     •	   The CISO has strengthened its oversight of the components’
          implementation of DHS’ baseline configuration requirements. One
          of the objectives of DHS’ configuration management compliance
          team is to evaluate whether baseline configuration settings are being
          implemented.
     •	   DHS issued a new baseline configuration guide for Windows Vista
          in May 2008.

     ISSUES TO BE ADDRESSED

     •	   DHS has not implemented the Federal Desktop Core Configuration
          (FDCC) requirements, as outlined in OMB Memorandums
          M-07-11, Implementation of Commonly Accepted Security
          Configurations for Windows Operating Systems, March 22, 2007,
          and M-07-18, Ensuring New Acquisitions Include Common Security
          Configurations, June 1, 2007. For example, DHS has not:
              ¾	 Incorporated the standard FDCC contract language into all
                 IT acquisitions. According to a DHS Procurement official,
                 the department is in the process of drafting its standardized
                 FDCC contract language for all IT acquisitions.
              ¾	 Adopted FDCC standard configurations and documented all
                 deviations from FDCC. According to an official from DHS’
                 Desktop Working Group, the department is in the process of
                 documenting the deviations from FDCC requirements.
              ¾	 Implemented FDCC security settings on its Windows XP
                 and Vista desktops and laptops. Further, DHS has not
                 established an implementation date for FDCC compliance.
                 An official from DHS’ Desktop Working Group indicated
                 that the department could not implement the settings on its
                 Windows XP and Vista desktop and laptops until all FDCC
                 deviations are documented.

     •	   Components have not fully implemented DHS baseline
          configuration settings on the systems reviewed. Specifically,
              ¾	 Results from our C&A and configuration reviews indicated
                 that DHS’ baseline configuration settings have not been
                 fully implemented on the systems. For example,
                 components have not fully implemented warning banners, or
                 enforced password complexities, and audit trail policies.
                 Note: CISO’s in-depth review team identified similar
                 findings during their assessments.
Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                               Page 12
                                  ¾	 Vulnerability assessments performed at components during
                                     our Automated Commercial Environment, Automated
                                     Targeting System, Chet Holifield Federal Building, and
                                     United States Coast Guard (USCG) network security audits
                                     identified security concerns with access control,
                                     identification and authentication, and configuration
                                     management. In these instances, components had not
                                     configured their systems based on DHS’ configuration
                                     guidelines. Components included CBP, ICE, and USCG.3

                         •	   Components are not performing annual security testing, as required
                              under FISMA. Some components indicated during our C&A
                              review that vulnerability scans performed internally or by DHS
                              Security Operations Center had satisfied this requirement.
                         •	   Components are not conducting periodic configuration management
                              reviews to evaluate their compliance with DHS baseline settings,
                              citing a lack of resources and tools.
                         •	   Weak internal IT controls related to financial management systems
                              were found during the audit of the department’s consolidated
                              financial statements for FY 2007.4 Security concerns included
                              inadequate access controls, application controls, software
                              development, and change controls. Note: POA&Ms have been
                              created for 182 (91%) of 200 NFRs identified during the financial
                              statement audit.

                         See Appendix I for information regarding DHS’ configuration
                         management.

                 Incident Detection, Handling, and Analysis Procedures

                         DHS has established adequate incident detection, handling, and
                         analysis procedures, but has not fully implemented its vulnerability
                         assessment program across the department.



3
  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12
Requirements (OIG-08-01, October 2007); Improved Administration Can Enhance Federal Emergency
Management Agency Classified Laptop Computer Security, Unclassified Summary (Report OIG-08-14,
November 2007); Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International
Airport (OIG-08-58, May 2008); Technical Security Evaluation of U.S. Immigration and Customs Enforcement
Activities at the Chet Holifield Federal Building (OIG-08-59, May 2008), and Additional Controls Can Enhance
the Security of the Automated Commercial Environment System (OIG-08-64, June 2008).
4
  Information Technology Management Letter for the FY 2007 DHS Financial Statement Audit (OIG-08-77,
June 2008).

                    Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                                   Page 13
       PROGRESS

       •	   DHS’ Security Operations Center has performed vulnerability
            assessment scans at CBP, ICE, and Management.

       ISSUES TO BE ADDRESSED

       •	   DHS’ vulnerability assessment program has not been deployed
            department-wide. The program includes a comprehensive
            vulnerability alert, assessment, remediation, and reporting process
            to effectively identify computer security vulnerabilities and track
            mitigation efforts to resolution. The DHS Security Operations
            Center only has limited access at six components (CBP, FEMA,
            Federal Law Enforcement Training Center [FLETC], ICE,
            Management, and United States Citizenship and Immigration
            Services [USCIS]) to perform vulnerability scans on selected
            servers and workstations. Furthermore, some components are not
            submitting vulnerability assessment schedule, or testing results to
            DHS’ Security Operations Center, as required.
       See Appendix J for information regarding DHS’ incident reporting.

Security Training

       DHS validates employee security training at the components. The
       department’s Information Security Training, Education, and Awareness
       Office (Training Office) has not developed a specific training program
       for employees with significant security responsibilities.

       PROGRESS

       •	   The Office of Human Capital implemented a department-wide,
            web-based learning management system “DHScovery.” The system
            can be used to provide standardized security awareness training and
            track employee completion of that training.
       •	   DHS’ Training Office conducts site visits to review and validate
            training records at the components.

       ISSUES TO BE ADDRESSED

       •	   The Training Office has not identified appropriate, specialized
            security training for employees and contractors with significant IT
            security responsibilities. While the Training Office validates the
            specialized training obtained by ISSMs and ISSOs, it relies on the

  Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                 Page 14
                         components to ensure that individuals with significant security
                         responsibilities (i.e., system administrators, database administrators,
                         and network administrators, etc.) are properly trained. We reported
                         a similar issue in our FY 2006 and FY2007 FISMA reports.5
                    •	 DHS does not have policy or procedures regarding the use of
                       Collaborative Web Technologies. In addition, DHS does not
                       educate users on the risks associated with the use of Collaborative
                       Web Technologies during security awareness training.
                    •	 DHS contractors do not have access to DHScovery or the
                       standardized security awareness training offered by the system.
                    •	 Some employees with significant responsibilities (i.e., database and
                       system administrators) did not attain sufficient knowledge to
                       perform their job functions. The results from our configuration
                       review found that some of the administrators could not execute the
                       commands needed to demonstrate whether controls were
                       implemented. Their inability to execute system commands may be
                       related to the fact that the Training Office and components have not
                       determined the appropriate specific specialized security training
                       needed for employees and contractors with significant IT securities
                       responsibilities.
                    See Appendix K for information regarding DHS’ security awareness
                    training.

            Privacy

                    DHS has established a PIA process. In addition, the Privacy Office
                    continues to refine its PIA guidance. The Privacy Office is
                    experiencing delays in reviewing and approving PIAs submitted by the
                    components and has not implemented all requirements specified in
                    OMB M-07-16, Safeguarding Against and Responding to the Breach of
                    Personally Identifiable Information, May 22, 2007.

                    PROGRESS

                    •	   The Privacy Office has issued new policies since our last review.
                         For example, the Privacy Office issued:
                             ¾	 Privacy Technology Implementation Guide to aid
                                technology managers and developers integrate privacy
                                protections into operational IT systems.

 5
  Evaluation of DHS’ Information Security Program for Fiscal Year 2006 (OIG-06-62, September 2006),
and Evaluation of DHS’ Information Security Program for Fiscal Year 2007 (OIG-07-77, September 2007).

               Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                              Page 15
               ¾	 Privacy Incident Handling Guidance to inform the
                  department’s employees, senior officials, and contractors of
                  their obligation to protect personally identifiable
                  information (PII) and how to respond in the event of
                  potential loss or compromise of PII.
               ¾	 A policy to assist components in completing or preparing
                  Systems of Records and Notices.

      ISSUES TO BE ADDRESSED

      •	 DHS has not implemented all of the requirements outlined in OMB
         M-07-16. Specifically, DHS has not defined the consequences for
         any users who do not comply with the policy.
      •	 DHS’ Privacy Office is experiencing delays in reviewing and
         approving PIAs. As of July 21, 2008, there were 76 PIAs in various
         stages of review; 20 of these PIAs had been outstanding for more
         than 8 months.
      See Appendix H for DHS’ Privacy Program and Privacy Impact
      Assessment Process.

Recommendations
      We recommend that the DHS Chief Information Officer:
      Recommendation #1: Improve the OIS’ review process to ensure that
      all POA&Ms, including those POA&M for classified systems, are
      complete, accurate, and current. The department should consider
      accepting the risks of the remediation actions for any low priority
      POA&Ms that have been delayed for more than 12 months.
      Recommendation #2: Ensure that components are utilizing the
      department’s C&A tool to generate the most current security document
      templates with all applicable controls when certifying and accrediting
      their systems. Systems accredited with outdated templates or without
      all applicable controls should not be accepted.
      Recommendation #3: Improve its process to ensure that DHS baseline
      configuration requirements are implemented and maintained on all
      systems. The process should include testing to verify the
      implementation of DHS baseline configuration settings.
      Recommendation #4: Identify the contingency plans for systems with
      high availability and with alternate processing facilities not operational.
      The department should consider accepting the risks for the systems



 Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                Page 16
      with high availability and contingency plans cannot be tested for the
      reason that the alternate processing facilities are not operational.
      Recommendation #5: Expedite the implementation of a
      department-wide vulnerability assessment program to perform periodic
      testing to evaluate the security posture at all components.
      Recommendation #6: Establish appropriate training that is needed for
      all individuals with significant security responsibilities to perform their
      security functions.

      Recommendation #7: Ensure the FDCC requirements outlined in
      OMB M-07-11 and M-07-18 are implemented expeditiously.

      We recommend that the DHS Chief Privacy Officer:
      Recommendation #8: Establish an escalation process for any PIAs that
      have been in the review and approval process for an extended period of
      time.

      Recommendation #9: Define the consequences of non-compliance by
      system users, in accordance with the requirements outlined in OMB
      M-07-16.

Management Comments and OIG Analysis
      DHS concurred with recommendation 1. DHS has begun the
      procurement and installation of a system to manage its classified
      POA&Ms. The department anticipates that this system will be
      operational by the first quarter of FY 2009.

      We agree that the steps DHS plans to take satisfy this recommendation.

      DHS concurred with recommendation 2. The department has revised
      its FY 2009 Information Security Performance Plan to further improve
      the quality of its C&A process. In addition, revised versions of the
      DHS C&A document templates will be implemented in the first quarter
      of FY 2009.

      We agree that the steps DHS plans to take satisfy this recommendation.

      DHS concurred with recommendation 3. The department has revised
      its FY 2009 Information Security Performance Plan to include
      additional reporting requirements regarding configuration management.

      We agree that the steps DHS plans to take satisfy this recommendation.

 Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                Page 17
     DHS concurred with recommendation 4. DHS has begun to identify
     the systems with “High Availability” to determine the scope of work
     associated with the implementation of an alternative processing center
     across the department.

     We agree that the steps DHS plans to take satisfy this recommendation.

     DHS concurred with recommendation 5. The DHS Security Operations
     Center (SOC), in support of the DHS FY09 Information Security
     Performance Plan, has begun to establish additional metrics to evaluate
     the visibility needed to implement an effective department-wide
     Vulnerability Assessment program.

     We agree that the steps DHS plans to take satisfy this recommendation.

     DHS concurred with recommendation 6. DHS has begun to establish
     training objectives based on security roles to facilitate a more robust
     training program for the department. Initially, the department plans to
     focus on the highest risk security positions.

     We agree that the steps DHS plans to take satisfy this recommendation.

     DHS concurred with recommendation 7. The department has revised
     its FY 2009 Information Security Performance Plan to ensure
     compliance with FDCC requirements. Specifically, DHS has
     incorporated key FDCC compliance milestones into configuration
     management metrics. In addition, the criteria for Acquisition Reviews
     are being updated to incorporate FDCC requirements.

     We agree that the steps DHS plans to take satisfy this recommendation.

     DHS concurred with recommendation 8. DHS has implemented a
     weekly report to track the status of the PIAs and system of records
     notices. With these weekly reports, DHS can determine whether the
     PIAs and system of records notices are being updated by the
     components, reviewed by the Privacy Office, General Counsel, and
     OMB, or have not been assigned.

     We agree that the steps DHS plans to take satisfy this recommendation.

     DHS concurred with recommendation 9. DHS is working to establish
     the rules in accordance with OMB M-07-16. The department plans to
     complete the rules and incorporate them into the PII Handbook by

Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                               Page 18
     December 2008. Once the rules are established, the Chief Human
     Capital Office and General Counsel will be responsible for developing
     the consequences of non-compliance for system users. Upon
     completion of both tasks, DHS will develop a training program to
     educate employees, contractors, and other personnel who may be
     impacted by the requirement.

     We agree that the steps DHS plans to take satisfy this recommendation.




Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                               Page 19
Appendix A
Purpose, Scope, and Methodology



                    The objective of this review was to determine whether DHS has developed
                    adequate and effective information security policies, procedures, and
                    practices, in compliance with FISMA. In addition, we evaluated DHS’
                    progress in developing, managing, and implementing its information security
                    program.

                    Our independent evaluation focused on DHS’ information security program
                    and practices, based on the requirements outlined in FISMA and, using OMB
                    Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal
                    Information Security Management Act and Agency Privacy Management,
                    issued on July 14, 2008. We conducted our work at the program level and at
                    DHS’ major components: CBP, FEMA, ICE, Management, Operation
                    Coordination, National Protection and Programs Directorate, S&T, TSA,
                    USCIS, USCG, U.S. Visitor and Immigrant Status Indicator Technology, and
                    United States Secret Service (USSS).

                    In addition to our independent evaluation, we conducted reviews of DHS’
                    information systems and security program-related areas throughout
                    FY 2008. This report includes the results of a limited number of systems
                    evaluated during the year and our on-going financial statement review,
                    including the Automated Commercial Environment, Automated Targeting
                    System, Chet Holifield Federal Building, and USCG network security audits.

                    As part of our evaluation of DHS’ compliance with FISMA, we assessed DHS
                    and its components’ compliance with the security requirements mandated by
                    FISMA and other federal information systems’ security policies, procedures,
                    standards, and guidelines including NIST SP 800-37, and FIPS 199.
                    Specifically, we: (1) used last year’s FISMA independent evaluation as a
                    baseline for this year’s review and assessed the progress that DHS has made
                    in resolving weaknesses previously identified; (2) focused on reviewing DHS’
                    POA&M process to ensure that all security weaknesses are identified, tracked,
                    and addressed; (3) reviewed policies, procedures, and practices that DHS has
                    implemented at the program level and at the component level; (4) evaluated
                    processes, i.e., system inventory, C&A, security training, and incident
                    response, that DHS has implemented as part of its agency-wide information
                    security program; and, (5) developed our independent evaluation of DHS’
                    information security program.

                    We reviewed the quality of the C&A packages for a sample of 25 systems at
                    12 components and offices: CBP, Management, FEMA, ICE, Operation
                    Coordination, NPPD, S&T, TSA, USCIS, USCG, US-VISIT, and USSS, to
                    ensure that all of the required documents were completed prior to system
                    accreditation. In addition, we evaluated the implementation of DHS’ baseline

                     Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                                Page 20
Appendix A
Purpose, Scope, and Methodology


                    configurations and compliance with selected NIST SP 800-53 controls for 28
                    systems at CBP, FEMA, ICE, Management, TSA, USCG, and USCIS.

                    We conducted our evaluation between May and August 2008 under the
                    authority of the Inspector General Act of 1978, as amended, and according to
                    the Quality Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency. Major OIG contributors to the evaluation are
                    identified in Appendix L.

                    The principal OIG points of contact for the evaluation are Frank Deffer,
                    Assistant Inspector General, Office of Information Technology at
                    (202) 254-4100 and Edward G. Coleman, Director, Information Security
                    Audit Division at (202) 254-5444.




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                                Page 21
Appendix B
Management Response to Draft Report




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2008 


                                                Page 22 

Appendix B
Management Response to Draft Report




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2008 


                                                Page 23 

Appendix B
Management Response to Draft Report




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2008 


                                                Page 24 

Appendix C
FISMA Scorecard and C&A Steady State Scorecard for July 2008




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2008 


                                                Page 25 

Appendix C
FISMA Scorecard and C&A Steady State Scorecard for July 2008




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2008 


                                                 Page 26 

Appendix D
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing




                                                                                      Question 1: FISMA System Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not categorized).
Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other organization on behalf of an
agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet the
requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

                                       Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by the IG by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which have: a current
certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                                   Question 1                                                                                           Question 2
                                          a.                         b.                               c.                                a.                                    b.                                   c.
                                    Agency Systems           Contractor Systems           Total Number of Systems             Number of systems                 Number of systems for which          Number of systems for which
                                                                                          (Agency and Contractor            certified and accredited          security controls have been tested     contingency plans have been
                                                                                                  systems)                             (a)                      and reviewed in the last year         tested in accordance with
                                                                                                                                                                                                                 policy
  Bureau      FIPS 199 Risk                      Number                     Number         Total      Total Number
                                  Number                    Number                                                      Total Number       Percent of Total   Total Number     Percent of Total     Total Number Percent of Total
   Name       Impact Level                      Reviewed                   Reviewed       Number       Reviewed
CBP          High                                       3                             0           0                 3                  3               100%               3                  100%                 3          100%
             Moderate                                   6                             0           0                 6                  6               100%               6                  100%                 6          100%
             Sub-total                     40           9            1                0          41                 9                  9               100%               9                  100%                 9          100%
CIS          Moderate                                   5                             4           0                 9                  7                78%               7                   78%                 7           78%
             Sub-total                     60           5          36                 4          96                 9                  7                78%               7                   78%                 7           78%
FEMA         High                                       1                             2           0                 3                  3               100%               3                  100%                 3          100%
             Moderate                                   2                             3           0                 5                  5               100%               5                  100%                 5          100%
             Sub-total                     35           3          21                 5          56                 8                  8               100%               8                  100%                 8          100%
FLETC        Sub-total                      9           0           4                 0          13                 0                  0                 0%               0                    0%                 0            0%
I&A          Sub-total                      2           0           1                 0           3                 0                  0                 0%               0                    0%                 0            0%
ICE          High                                       1                             0           0                 1                  1               100%               1                  100%                 1          100%
             Moderate                                   3                             3           0                 6                  6               100%               5                   83%                 6          100%
             Low                                        0                             1           0                 1                  1               100%               1                  100%                 1          100%
             Sub-total                     32           4          47                 4          79                 8                  8               100%               7                   88%                 8          100%




                                                                         Evaluation of DHS’ Information Security Program for Fiscal Year 2008
                                                                                                                                                              



                                                                                                             Page 27
                                                                                                                        

Appendix D
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing



                                                 Question 1                                                                                        Question 2
                            a.                      b.                            c.                                a.                                    b.                                 c.
                      Agency Systems        Contractor Systems        Total Number of Systems             Number of systems                 Number of systems for which        Number of systems for which
                                                                      (Agency and Contractor            certified and accredited          security controls have been tested   contingency plans have been
                                                                              systems)                             (a)                      and reviewed in the last year       tested in accordance with
                                                                                                                                                                                           policy

ITSO ISD High                          2                         1            0                 3                 3                100%              3                 100%              3            100%

         Moderate                      1                         1            0                 2                 2                100%              2                 100%              1             50%
         Sub-total          9          3        14               2           23                 5                 5                100%              5                 100%              4             80%
NPPD     High                          0                         1            0                 1                 1                100%              1                 100%              1            100%
         Sub-total          7          0        12               1           19                 1                 1                100%              1                 100%              1            100%
OIG      Sub-total          3          0         0               0            3                 0                 0                  0%              0                   0%              0              0%
OIS      Sub-total          1          0         1               0            2                 0                 0                  0%              0                   0%              0              0%
OPS      High                          1                         0            0                 1                 1                100%              1                 100%              1            100%
         Sub-total          2          1         1               0            3                 1                 1                100%              1                 100%              1            100%
S&T      Moderate                      0                         1            0                 1                 1                100%              1                 100%              1            100%
         Low                           0                         1            0                 1                 1                100%              1                 100%              1            100%
         Sub-total          7          0        12               2           19                 2                 2                100%              2                 100%              2            100%
TSA      High                          1                         2            0                 3                 3                100%              3                 100%              3            100%
         Moderate                      2                         2            0                 4                 4                100%              4                 100%              4            100%
         Low                           1                         0            0                 1                 1                100%              1                 100%              1            100%
         Sub-total         51          4        29               4           80                 8                 8                100%              8                 100%              8            100%
USCG     High                          0                         1            0                 1                 1                100%              1                 100%              1            100%
         Moderate                      3                         2            0                 5                 5                100%              5                 100%              4             80%
         Low                           2                         1            0                 3                 3                100%              3                 100%              3            100%
         Sub-total         93          5        29               4          122                 9                 9                100%              9                 100%              8             89%
USSS     Moderate                      1                         0            0                 1                 1                100%              1                 100%              0              0%
         Sub-total         24          1         1               0           25                 1                 1                100%              1                 100%              0              0%
US-VISIT Moderate                      1                         0            0                 1                 1                100%              1                 100%              1            100%
         Sub-total          1          1         6               0            7                 1                 1                100%              1                 100%              1            100%
Agency
         High               0           9        0                7           0             16                  16                 100%             16                 100%             16            100%
Totals
         Moderate           0          24        0               16           0             40                  38                  95%             37                  93%             35             88%
         Low                0           3        0                3           0              6                   6                 100%              6                 100%              6            100%
         Total            376          36      215               26         591             62                  60                  97%             59                  95%             57             92%




                                                     Evaluation of DHS’ Information Security Program for Fiscal Year 2008
                                                                                                                                          



                                                                                        Page 28
                                                                                                    

Appendix E
Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory



Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency
                                  System Inventory
   3.a.   The agency performs oversight and evaluation to ensure information
          systems used or operated by a contractor of the agency or other
          organization on behalf of the agency meet the requirements of FISMA,
          OMB policy and NIST guidelines, national security policy, and agency
          policy.

          Agencies are responsible for ensuring the security of information systems
          used by a contractor of their agency or other organization on behalf of their
          agency; therefore, self-reporting by contractors does not meet the
                                                                                        - Almost Always- for example,
          requirements of law. Self-reporting by another federal agency, for example, a
                                                                                        approximately 96-100% of the time
          federal service provider may be sufficient. Agencies and service providers
          have a shared responsibility for FISMA compliance.

          Response Categories:
           - Rarely- for example, approximately 0-50% of the time
           - Sometimes- for example, approximately 51-70% of the time
           - Frequently- for example, approximately 71-80% of the time
           - Mostly- for example, approximately 81-95% of the time
           - Almost Always- for example, approximately 96-100% of the time
   3.b.   The agency has developed a complete inventory of major information
          systems (including major national security systems) operated by or under
          the control of such agency, including an identification of the interfaces
          between each such system and all other systems or networks, including
          those not operated by or under the control of the agency.
                                                                                      - The inventory is approximately 96-
          Response Categories:
                                                                                      100% complete
           -   The inventory is approximately 0-50% complete
           -   The inventory is approximately 51-70% complete
           -   The inventory is approximately 71-80% complete
           -   The inventory is approximately 81-95% complete
           -   The inventory is approximately 96-100% complete

          The IG generally agrees with the CIO on the number of agency-owned
   3.c.                                                                                                Yes
          systems. Yes or No.

          The IG generally agrees with the CIO on the number of information
   3.d.   systems used or operated by a contractor of the agency or other                              Yes
          organization on behalf of the agency. Yes or No.

   3.e.   The agency inventory is maintained and updated at least annually.                            Yes

          If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known
   3.f    missing systems by Component/Bureau, the Unique Project Identifier (UPI) associated with the system as
          presented in your FY2008 Exhibit 53 (if known), and indicate if the system is an agency or contractor system.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                        Page 29 

Appendix E
Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory



Component/Bureau           System Name               Exhibit 53 UPI            Agency or Contractor
                                                    (must be 23-digit)               system?




Number of known systems missing from
inventory:




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                Page 30 

Appendix F
Evaluation of Agency Plan of Action and Milestones Process



       Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and
milestones (POA&M) process. Evaluate the degree to which each statement reflects the status in your agency
by choosing from the responses provided. If appropriate or necessary, include comments in the area
provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's
status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
          The POA&M is an agency-wide process, incorporating all known IT                            - Almost Always- for example,
          security weaknesses associated with information systems used or                            approximately 96-100% of the
   4.a.                                                                                              time (a)
          operated by the agency or by a contractor of the agency or other
          organization on behalf of the agency.
          When an IT security weakness is identified, program officials                              - Mostly- for example,
   4.b. (including CIOs, if they own or operate a system) develop,                                   approximately 81-95% of the time
          implement, and manage POA&M for their system(s).                                           (b)
          Program officials and contractors report their progress on security                        - Mostly- for example,
   4.c. weakness remediation to the CIO on a regular basis (at least                                 approximately 81-95% of the time
          quarterly).                                                                                (c )
                                                                                 - Almost Always- for example,
             Agency CIO centrally tracks, maintains, and reviews POA&M
      4.d.                                                                       approximately 96-100% of the
             activities on at least a quarterly basis.                           time (d)
                                                                                 - Mostly- for example,
      4.e.   IG findings are incorporated into the POA&M process.                approximately 81-95% of the time
                                                                                 (e)
             POA&M process prioritizes IT security weaknesses to help ensure - Mostly- for example,
      4.f.   significant IT security weaknesses are addressed in a timely manner approximately 81-95% of the time
             and receive appropriate resources.                                  (f)
POA&M comments:

(a)   DHS requires all known IT security weaknesses to be included in DHS’ enterprise management tool.
(b)   DHS requires components to create POA&M for all IT security weaknesses. However, our review determined that POA&Ms were not
      created for all identified IT security weaknesses. Specifically, 217 (84%) of 259 of all recommendations cited in OIG audit reports
      (including Notice of Findings and Recommendations [NFRs]) had corresponding POA&Ms in DHS’ enterprise management tool.
(c)   DHS components are required to update all information in their POA&Ms at least monthly. Of the 4,245 open POA&M in DHS’ enterprise
      management tool, 491 (12%) have estimated completion dates that are at least three months past due. Furthermore, there are 252 (6%)
      POA&M that have estimated completion dates that are at least 12 months past due.
(d)   The CIO regularly performs quality reviews (automated) on all POA&Ms to ensure that information entered into DHS’ enterprise
      management tool is accurate, reasonable, and complete. In addition, the CIO prepares a monthly report to help monitor the components'
      progress.
(e)   DHS requires all OIG findings be included in each component’s POA&M. We determined that 217 (84%) of 259 of all recommendations
      cited in OIG audit reports (including NFRs) had corresponding POA&Ms in DHS’ enterprise management tool.
(f)   DHS has prioritized all POA&M (IT security weaknesses) in DHS’ enterprise management tool. However, there are 11 significant
      weaknesses that were reported at seven components. Five of the 11 significant weaknesses were created over 12 months ago (before
      June 30, 2007). Of these five POA&M, four were scheduled to take more than two years to remediate. In addition, of the 4,245 open
      POA&M in DHS’ enterprise management tool, there are 491 POA&M that are three months past due and 252 POA&M that are 12 months
      past due. Furthermore, we determined that many of the POA&M are not completed as originally scheduled. For example, our query results
      determined that 1,978 (47%) out of 4,245 open POA&M have been delayed.




                             Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                                 Page 31 

Appendix G
IG Assessment of the Certification and Accreditation Process



          Question 5: IG Assessment of the Certification and Accreditation Process
 Provide a qualitative assessment of the agency's certification and accreditation process, including
 adherence to existing policy, guidance, and standards. Provide narrative comments as appropriate.

 Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation
 of Federal Information Systems" (May 2004) for certification and accreditation work initiated after May 2004.
 This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and
 Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document
 used as guidance for completing risk assessments and security plans.

          The IG rates the overall quality of the Agency's
          certification and accreditation process as:

          Response Categories:
   5.a.    - Excellent                                                                - Good
           - Good
           - Satisfactory
           - Poor
           - Failing

          The IG's quality rating included or considered Security plan                                      X
          the following aspects of the C&A process: (check
          all that apply)                                  System impact level                              X
                                                           System test and evaluation                       X
                                                                Security control testing                    X
    5.b                                                         Incident handling                           X
                                                                Security awareness training                 X
                                                                Configurations/patching                      X
                                                                Other: privacy impact assessment, risk
                                                                assessment, contingency plan, contingency plan
                                                                testing, security assessment report
 C&A process comments:

 (a) DHS has implemented a good C&A process. DHS uses a department-wide tool that incorporates NIST
     security controls to certify and accredit all systems. The CIO requires all components to use this tool.
     Components are required to apply NIST SP 800-53 security controls for all system certifications.
     However, for many systems, the artifacts that are required to certify and accredit a system were either
     missing or incomplete. Our review of 25 C&A packages at 12 components and offices found two
     instances in which accreditation packages were incomplete. In addition, we identified that other systems
     were accredited, though some key security documents were missing information that is required to meet
     all applicable DHS, OMB, and NIST guidelines.




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                    Page 32 

Appendix H
IG Assessment of Agency Privacy Program and Privacy Impact Assessment Process


         Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact
                                 Assessment (PIA) Process
    6.    Provide a qualitative assessment of the agency's Privacy Impact
          Assessment (PIA) process, as discussed in Section D Question #5
          (SAOP reporting template), including adherence to existing
          policy, guidance, and standards.

          Response Categories:                                                                          - Good
           - Excellent
           - Good
           - Satisfactory
           - Poor
           - Failing


 Comments:

 DHS has established a PIA process. The Privacy Office requires a privacy threshold analysis (PTA) for all systems to
 determine whether a PIA is needed. PTAs are specifically developed to identify which systems in the DHS information
 systems inventory collect or use personally identifiable information (PII), which systems require a PIA, and which need a
 Privacy Act System of Records Notice. The PIA guidance provides information on when a PIA must be conducted, how
 associated analysis should be performed, and how the PIA document should be written. Further, the Privacy Office
 continues to refine its policies since our last review, such as Privacy Technology Implementation Guide (PTIG), and
 Privacy Incident Handling Guidance (PIHG).

 The Privacy Office has a backlog in reviewing and approving PIAs. As of July 21, 2008, there were 76 PIAs in various
 stages of review.


    7. 	 Provide a qualitative assessment of the agency's progress to date

         in implementing the provisions of M-07-16, "Safeguarding Against

         and Responding to the Breach of Personally Identifiable 

         Information”.


          Response Categories:                                                                      - Satisfactory
           - Excellent
           - Good
           - Satisfactory
           - Poor
           - Failing



 Comments:

 DHS has implemented the majority of M-07-16 requirements. For example, the Privacy Office has issued a breach notification
 policy, developed an implementation plan to eliminate the unnecessary collection and use of social security numbers, and
 drafted a plan to review and to reduce holding of PII.

 DHS has not outlined the consequences of non-compliance in its rules of behavior.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                           Page 33 

Appendix I
Configuration Management



                                    Question 8: Configuration Management

        8.a.    Is there an agency-wide security configuration policy? Yes
                                                                                                         Yes
                or No.
                Comments:
                DHS has included in its agency-wide policy a requirement that all components ensure that the installation
                of hardware and software products meet requirements specified in applicable DHS secure baseline
                configuration guides. DHS has developed configuration guides for all major hardware and software
                systems being used by its components.
                Approximate the extent to which applicable information
        8.b.    systems implement security configurations available from
                the National Institute of Standards and Technology’s
                website at http://checklists.nist.gov.

                Response categories:
                                                                                                  See comment (a)
                  - Rarely- for example, approximately 0-50% of the time
                  - Sometimes- for example, approximately 51-70% of the time
                  - Frequently- for example, approximately 71-80% of the time
                  - Mostly- for example, approximately 81-95% of the time
                  - Almost Always- for example, approximately 96-100% of the
                time
         8c    Indicate which aspect of Federal Desktop Core Configuration (FDCC) have been implemented as of this
               report:

               c.1 Agency has adopted and implemented FDCC standard Configuration and has
                   documented deviations.                                                                        No (b)
                   Yes or No
               c.2 New Federal Acquisition Regulation 2007-004 language, which modified “Part
                   39-Acquisition of Information Technology”, is included in all contracts related to            No (c)
                   common security settings. Yes or No
               c.3 All Windows XP and VISTA computing systems have implemented the FDCC
                   security settings. Yes or No.                                                                 No (d)


Comments:

(a)	 Many of the components use standard configurations for their systems, but have not fully implemented DHS'
     baseline configuration guides. As part of our C&A and configuration reviews, we identified that DHS’ baseline
     configuration settings have not been fully implemented on all of the systems selected. Results of vulnerability
     assessments during the fiscal year have identified additional security concerns, including inadequate password
     controls and patches that had not been installed.
(b) DHS is in the process of documenting deviations from FDCC settings.
(c)	 DHS is in the process of drafting its standard FDCC contract language for all IT acquisitions.
(d) DHS cannot implement the settings on its Windows XP and Vista desktops and laptops until the department
     completes documenting deviations from FDCC.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                          Page 34 

Appendix J
Incident Reporting



                                     Question 9: Incident sReporting
    Indicate whether or not the agency follows documented policies and procedures for reporting incidents
    internally,
    to US-CERT, and to law enforcement. If appropriate or necessary, include comments in the area
    provided below.
             The agency follows documented policies and procedures for identifying
      9.a.                                                                                   Yes
             and reporting incidents internally. Yes or No.
             The agency follows documented policies and procedures for external
      9.b.                                                                                   Yes
             reporting to US-CERT. Yes or No. (http://www.us-cert.gov)
             The agency follows documented policies and procedures for reporting to
      9.c.                                                                                   Yes
             law enforcement. Yes or No.

    Comments:




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                   Page 35 

Appendix K
Security Awareness Training, Collaborative web technologies, Peer-to-Peer File Sharing, and E-
Authentication Risk Assessments



                                     Question 10: Security Awareness Training
  Has the agency ensured security awareness training of all employees, including
  contractors and those employees with significant IT security responsibilities?

  Response Categories:                                                                                     - Mostly, or,
   - Rarely- or approximately 0-50% of employees                                                           approximately 81-95% of
   - Sometimes- or approximately 51-70% of employees                                                       employees
   - Frequently- or approximately 71-80% of employees
   - Mostly- or approximately 81-95% of employees
   - Almost Always- or approximately 96-100% of employees

  Comments:
  The Training Office is validating components’ training data to ensure that the components provide IT security
  awareness training to their employees. The Training Office has not determined what training is needed for
  individuals with significant IT security responsibilities (including network, database, and system administrators).

           Question 11: Collaborative Web Technologies and Peer-to-Peer File Sharing
  A. Does the agency explain policies regarding the use of collaborative web
     technologies in IT security awareness training, ethics training, or any other
                                                                                                                          No
     agency-wide training? Yes or No.
  B. Does the agency explain policies regarding the use of peer-to-peer file sharing
     in IT security awareness training, ethics training, or any other agency-wide                                        Yes
     training? Yes or No.



                                Question 12: E-Authentication Risk Assessments
  12. a. Has the agency identified all e-authentication applications and validated that the
  applications have operationally achieved the required assurance level in accordance with                              Yes (a)
  the NIST Special Publication 800-63, “Electronic Authentication Guidelines”? Yes or No.
  12.b. If the response is “No”, then please identify the systems in which the agency has not
  implemented the e-authentication guidance and indicate if the agency has a planned date of
  remediation.




  (a) We sampled 23 systems that were reported as E-Authentication applications in DHS’ enterprise management tool to determine whether
      the assessments were properly completed and applicable controls were implemented. For example, we found nine systems were reported
      incorrectly as E-Authentication applications in DHS’ enterprise management tool, when compared to the determination. As such, DHS
      may not have an accurate inventory of its E-Authentication systems. In addition, 4 of the 14 E-Authentication systems had inconsistent
      assurance levels reported in DHS’ enterprise management tool when compared to the source documents. Only one of the 14
      E-Authentication systems properly addressed the DHS and NIST required controls in the system test and evaluation plans and security
      assessment reports for the assigned E-Authentication assurance levels.




                           Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                                Page 36 

Appendix L
Major Contributors to this Report



                      Information Security Audit Division

                      Edward G. Coleman, Director
                      Chiu-Tong Tsang, Audit Manager
                      Barbara Bartuska, Audit Manager
                      Mike Horton, Information Technology Officer
                      Maria L. Rodriguez, Team Lead
                      Aaron Zappone, Program Analyst
                      Charles Twitty, IT Auditor
                      Kristina Hayden, Program Analyst
                      Nazia Khan, IT Specialist
                      Thomas Rohrback, IT Specialist
                      Peter Spano, Management/Program Assistant
                      Meghan Sanborn, Referencer

                      Advanced Technology Division

                      John Molesky, Information Security Engineer
                      Jordan Dixon, Information Security Engineer




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2008

                                                 Page 37
Appendix M
Report Distribution



                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretary
                        Assistant Secretary for Legislative Affairs
                        Assistant Secretary for Policy
                        Assistant Secretary for Public Affairs
                        Chief Information Officer
                        Deputy Chief Information Officer
                        Chief Financial Officer
                        Chief Privacy Officer
                        Chief Human Capital Officer
                        Chief Information Security Officer
                        Director, GAO/OIG Liaison Office
                        Director, Compliance and Oversight Program, Office of CIO
                        Director, Privacy Compliance
                        Chief Information Officer Audit Liaison
                        Chief Information Security Officer Audit Liaison
                        Privacy Office Audit Liaison
                        Component CIOs
                        Component ISSMs

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as appropriate




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2008


                                                    Page 38 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at: 

           DHS Office of Inspector General/MAIL STOP 2600, 

           Attention: Office of Investigations - Hotline, 

           245 Murray Drive, SW, Building 410, Washington, DC 20528. 


The OIG seeks to protect the identity of each writer and caller.
